                      OFFICE OF THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                            COMMUNITY SERVICE




                         Review of the Corporation's Use of
                               Single Audit Reports

                            OIG Audit Report Number 01-14
                                 November 14,2000




This report was issued to Corporation management on February 1,2001. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than July 31, 2001, and
complete its corrective actions by February 1,2002. Consequently, the reported findings do
not necessarily represent the final resolution of the issues presented.
                                Office of the Inspector General
                        Corporation for National and Community Service
                                  Audit Report Number 01-14

                   Review of the Corporation's Use of Single Audit Reports

                                            Table of Contents


Results in Brief.. .......................................................................................... 1

Background. .............................................................................................. .2

Finding 1: Corporation controls fail to ensure that required single audits are
           performed, that the reports are received in a timely fashion and
           that follow-up on findings is performed in a timely fashion.. .....................


Table: Comparison of Circular A- 133 Requirements and the Corporation's Policies.. ..........6

Finding 2: Corporation controls fail to ensure that management decisions on
           audit reports are issued timely and that appropriate and timely
                         . .
           corrective action is taken. .................................................................
                                                                                                      .9


Finding 3: Corporation controls do not ensure that single audit information
           is considered as part of the Corporation's grant award, grant
           management and grant closeout process.. ..............................................
                                                                                               .10

Appendix I - Objectives, Scope and Methodology.. ................................................. 12

Appendix I1 - The Corporation's Response.. ........................................................ .14
                              Office of the Inspector General
                  Review of the Corporation's Use of Single Audit Reports


Since 1984, the Single Audit Act has required the Corporation for National Service to ensure
that audits for its grant recipients are performed, as required under the guidelines of OMB
Circular A-133, and that the Corporation receives the reports in a timely manner. These
audit reports provide valuable information on Corporation grantees, including financial
reporting, internal controls, compliance with Federal laws and grant provisions, and
performance of their grants. This information can assist the Corporation in its evaluation of
the Federal funds financial management capabilities of grant applicants, and in its oversight
and monitoring of current grantees. The Act also requires the Corporation to review the
reports, track and follow-up on single audit findings, and in some cases, issue management
decisions to ensure that grantees take appropriate corrective action.

During fiscal year 2000, the Office of the Inspector General performed a review to determine
whether the Corporation's current procedures provided reasonable assurance that single audit
reports are obtained, reviewed, and tracked, and that findings, if any, are being resolved.
This review is a follow-up on two previously issued OIG reports1 that identified weaknesses
related to obtaining and resolving Single Audit Act reports. Additional information on our
objectives, scope and methodology is provided in Appendix I.



RESULTS IN BRIEF

We found that the Corporation's management controls for collection and use of single audit
information are inadequate. The Corporation's current procedures at the headquarters Grants
Management Office and the two Service Centers we visited did not provide reasonable
assurance that the Corporation is aware that the required single audits are being performed,
or that single audit information is being obtained, reviewed, tracked, and resolved in
accordance with the requirements of OMB Circular A- 133, Audits of States, Local
Governments, and Nonprofit Organizations, revised June 24, 1997.

Specifically, we found that:

    Corporation controls fail to ensure that required audits are performed, that the reports are
    received in a timely fashion, and that follow-up on findings is performed in a timely
    fashion.


' OIG Report 98-02, Pre-Award Financial Assessment of Grant Applicants, issued in April 1998, reported that
the Grants Management Office did not always collect information required for assessing grantees, such as
information from single audit reports. OIG Report 99-12, Audit of the Corporation for National and
Community Service's Fiscal Year 1998 Financial Statements, issued in April 1999, fust reported that the
Corporation has not established a routine methodology for obtaining and reviewing grantees' single audit
reports. More recently, the audit of the Corporation's fiscal year 1999 financial statements (OIG Audit Report
00-01) revealed that the Corporation still lacked a routine methodology to review single audit reports.
    Corporation controls fail to ensure that management decisions on audit reports are issued
    timely and that appropriate and timely corrective action is taken.

    Corporation controls do not ensure that single audit information is considered as part of
    the Corporation's grant award, grant management and grant closeout process.


On July 6, 2000, the Corporation issued Policy Number 102, Audit Resolution under the
Single Audit Act, but with no new procedures to implement the policy. Our review of the
policy reveals that it does not effectively address all requirements of OMB Circular A-133.
We are recommending that CNS strengthen its policy and issue additional procedures to
correct the conditions we found.

The Corporation was provided with an opportunity to comment on this report. Their
response (Appendix 11) takes issue with components of two of the findings and remains silent
on the third. OIG's responses to the Corporation's comments are included in the body of the
report following discussion of each finding and related recommendations.


BACKGROUND

The Office of Management and Budget provides guidance on implementation of the Single
Audit Act in OMB Circular A-133, Audits of States, Local Governments, and Nonprofit
Organizations. The Circular requires that non-Federal entities that expend $300,000 or more
in Federal awards during a year have a single audit.2 The Circular includes standards for
conducting audits of Federal awards to non-Federal entities.

The Single Audit Act and OMB Circular A-133 make agencies responsible for ensuring that
its grantees have required audits, obtaining audit reports, tracking related audit findings and
following up on corrective actions. OMB Circular A- 133 also addresses actions that Federal
entities should take if a grantee refuses to comply and obtain a Single Act audit, including
withholding Federal funds.

Under the Circular, all single audit reports are to be sent to the Federal Audit Clearinghouse
for inclusion in a database of single audits. The results of the audit are entered into the
online database for use by Federal departments and agencies to monitor their grantees. The
Clearinghouse forwards single audit reports with findings and questioned costs to the
appropriate Federal awarding agency for resolution. The Circular requires that the agency
issue a management decision within six months of receipt of the audit report on findings that
relate to the awards it makes to recipients.




2
  With one exception to this requirement, the non-Federal entities may elect to have a program-specific audit
conducted when they expend Federal awards under only one Federal program and the Federal program's laws,
regulations, or grant agreements do not require a financial statements audit of the auditee.
At the Corporation, management and oversight of grants occurs at different organizational
levels, depending upon the program involved. The Grants Management Office at CNS
headquarters manages and oversees most grants funded by appropriations related to the
National and Community Service Act. The Corporation's five Service Centers manage and
oversee all grants funded by appropriations related to the Domestic and Volunteer Service
Act, and the grants awarded through states, to state education agencies under the Learn and
Serve America program.3

FINDINGS

I.      Corporation controls fail to ensure that required audits are performed, that the reports
        are received in a timely fashion, and that follow-up on findings is performed in a
        timely fashion.

Under Grants Management Office guidelines at Corporation headquarters, the responsible
grants officer is to review Single Audit Act reports and indicate by notation whether further
action is needed on the front of the audit report. If no further action is needed, the grants
officer is to file the single audit report in the grantee's organization file. For findings or
recommendations that need follow-up, the grants officer is to prepare a letter to the grantee
and request that the grantee respond within 30 days. Upon receipt, the responsible grants
officer is to review the response, note whether the response was satisfactory or
unsatisfactory, and initial and date it. The grants officer is then to forward the response to
the Grants Management Office Audit Liaison Official for final review, tracking, appropriate
internal Corporation follow-up and reporting, and filing in the organization file.

To assess the adequacy of the Corporation procedures utilized to obtain and review single
audits, and to resolve reported findings and questioned costs, we judgmentally selected a
sample of 23 single audit reports that contained findings directly related to a Corporation
program and had been forwarded by the Federal Audit Clearinghouse to the Corporation.

At the Corporation headquarters, we determined what actions were taken with 13 of the 23
single audit reports with findings that OIG had previously reviewed and forwarded to the
Grants Management Office for follow-up. The Grants Management Office located five of
the 13 corresponding official and organization grant files, but was unable to locate the
remaining eight files. Six of these eight files were subgrantee files, for which Grants
Management Office does not have primary oversight responsibility. Our review of the five
files revealed that two did not contain the single audit report. In addition, we found no
evidence, such as notations or accompanying documentation, to indicate that Grants
Management staff reviewed or followed up on the single audit reports in accordance with the
Grants Management guidelines noted above.



3
  The five Service Centers provide financial, administrative, management, budgeting, and grant making support
to the aforementioned national service programs operating within the following respective geographic regions:
Atlantic, Pacific, North Central, Southern, and Southwest. These Service Centers are located in Philadelphia,
Pennsylvania; San Francisco, California; Chicago, Illinois; Atlanta, Georgia; and Dallas, Texas.
Furthermore, of the 13 single audit reports selected for our testing, three contained
questioned costs. According to the Grants Management Office, there was no documentation
maintained on this resolution because these reports related to subgrantees and, under its
Grants Management Guidelines GMG 99-13, the primary grantee has this oversight
responsibility. OIG requested the Corporation determine whether audit resolution and
follow-up were taken. The Grants Management Office responded that collection actions had
been completed for two of them. The Grants Management Office indicated that questioned
costs still remain an open issue for one report. The Corporation has not yet issued a
management decision on this remaining report, which was received by the Corporation on
November 8, 1999.

At the Southern Service Center, we determined what actions were taken with five single
audit reports with findings. We found no documentation to support that the single audit
reports were reviewed. According to a grants official at the Service Center, three of the five
audit reports were yet to be reviewed (one covered fiscal year end December 3 1, 1998 and
the other two fiscal year end December 3 1, 1999). Although the grants official stated that he
performed a review of the remaining two grant files, there was no documentation to support
the review.

At the North Central Service Center we again determined what actions were taken with five
single audit reports with findings. For four of the five reports, the Service Center had
appropriately reviewed the report, taken follow-up action and documented the process.
However, the Service Center was not able to locate the fifth report. Further, the Service
Center was not aware that the Clearinghouse's online database listing for this grantee's single
audit included questioned costs under both its Foster Grandparents Program and Senior
Corps Program.

We also found that AmeriCorps*VISTA grants at the two Service Centers were not included
in the Service Centers' procedures because VISTA grants are typically less than $300,000,
according to grants officials. However, our review of AmeriCorps*VISTA grantee funding
during Fiscal Year 2000 revealed that, at each Service Center, three such grantees were
awarded well over $300,000 through the Corporation. Moreover, organizations that receive
less than $300,000 per year from the Corporation might receive additional Federal funds
from other sources that would make them subject to OMB Circular A-1 33 requirements.

Our review of the Corporation's July 6, 2000 policy reveals that the new policy requires the
log in of reports, but lacks requirements or procedures to ensure timely delivery of required
reports to the Clearinghouse by its grantees, and that the policy requires consideration of
CNS grant funds only, rather than Federal financial assistance as defined by the Act (See
Table I, page 6).

We recommend that the Corporation review and revise its control procedures for determining
which grantees are subject to OMB Circular A-133 audits to ensure that all required Circular
A-133 audits are performed, that the audit reports are received and reviewed by the
Corporation in a timely fashion, and that follow-up is performed in accordance with Circular
A-1 33 requirements. Procedures should be established that require documentation to identify
the staff members responsible for:

               performing the review of Circular A- 133 reports,

               documenting the receipt and review of the reports, and

               maintaining the documentation.


Corporation Comment

The Corporation took issue with this finding. Its response stated that the audit sample is
misleading in that the audit report pointedly notes that the Corporation was unable to locate
the remaining eight files. The Corporation stated that out of the 13 audits, eight were related
to subgrantees, not grantees and, therefore, not the direct responsibility of the Corporation to
track.

As a general comment, the Corporation stated that it would have been more helpful if OIG
had provided timely feedback on the policies as they were being implemented and then
surveyed audits processed under the new system.

OIG Response

Under procedures in place at the time, OIG transmitted single audit reports which had
findings related to Corporation programs from the Clearinghouse to the Corporation for audit
follow-up. Our sample was drawn from the reports we sent to CNS for follow up. As part of
our procedures, we identified what actions were taken regarding these reports. The Grants
Management Office became aware that the eight pertained to subgrantees upon our inquiry.
Moreover, the main point of our finding was that for the five reports that were located, our
procedures revealed that there was no documentation at Grants Management Office to
support that audit follow-up was performed in accordance with Corporation guidance.

OIG believes that a key component of internal control is assessment of corrective actions
taken. The Corporation does not have a mechanism to determine whether its policies,
procedures and corrective actions are effective.
                                                                Corporation for National Service Policies
                                                                    For Use of Single Audit Reports

                                          Prior to July 6,2000                                               CNS Policy 102 - Issued July 6,2000
                            Status of
CNS Location:                                                         OIG Review Findings                     oes the new policy address the findings?

Circular A-133 Requirement: Ensure required audits are performed and that audit reports are received timely.
                                                   I
 Grants          Draft -        A- 133 audit           Documentation not required; evidence that reports Policy requires log in of reports, but lacks
 Management      March 1999     reports required       are routinely reviewed is lacking.                requirements or procedures to ensure
 Office                         for grant award                                                          timely receipt.
                                or close-out           Review of reports is not required during the grant No. Policy requires "periodic" review of
                                                       period.                                            Clearinghouse database.
                                                       Procedures do not include asking grantees the         No. Policy requires consideration of CNS
                                                       amount of all Federal expenditures.                   grant funds rather than Federal Financial
                                                                                                             Assistance as defined in the Circular.
 Southern and    Referred to    Reports                Not required during grant period.                     No.
 North Central   "Interim       requiredlused          Excludes AmeriCorps Vista grantees, several of The policy does not mention AmeriCorps
 Service         Grant          for grant award        which appear to expend in excess of $300,000 Vista grantees. The policy requires
 Centers         Management     or close-out           annually.                                      consideration of CNS grant funds only as
                 Handbook       only                                                                  discussed above.
                 for Staff'
                 issued May                            Procedures do not include asking grantees as to the   No, the policy requires consideration of
                 1994.                                 amount of Federal financial assistance.               CNS grant funds only.

                                                       Interim Handbook is out of date and conflicts with    Yes.
                                                       current Federal requirements in OMB Circular A-
                                                       133.
                                                       No evidence that procedures require CNS staff to      No.
                                                       obtain evidence from the audit Clearinghouse
                                                       during the grant period.
                                                         Corporation for National Service Policies
                                                            For Use of Single Audit Reports

                                         Prior to July 6,2000                                          CNS Policy 102 - Issued July 6,2000
                            Status of
                                     Control
CNS Location:      Policies        Procedures                   OIG Review Findings                   Does the new policy address the findings?

Circular A-133 Requirement: Issue Management Decision within six months and ensure grantee takes appropriate and timely
corrective action.
 Grants          Draft - March Draft - March    GMO was unable to locate 8 of 13 grant files. Five    CFO is responsible for ensuring that a
 Management      1999          1999             files contained no evidence of follow-up. Three       system for tracking and documenting all
 Office                                         included questioned costs. One of the three had not   audit follow-up actions and corrective
                                                been resolved.                                        actions is in place.

 Southern and    Interim        No written      No written procedures and no evidence to              Grants Official is responsible for
 North Central   Guidance as    procedures.     document review at Southern Service Center.           periodically checking the Clearinghouse (at
 Service         described                                                                            least once a year) to determine if an audit
 Centers         above                                                                                was conducted and is on file with the
                                                                                                      Clearinghouse, and documenting his or her
                                                                                                      actions in the official grant file.
                                                                   Corporation for National Sewice Policies
                                                                      For Use of Single Audit Reports

                                                  Prior to July 6,2000                                          CNS Policy 102 - Issued July 6,2000
                                  Status of
 CNS Location:

I Circular A-133 Requirement: Consider Single Audit or other audit information aspart of the grant awardprocess.
                                      I
  Grants           Draft - July           Draft - July   The draft guidelines provide guidance for the         No, the new policy addresses audit
  Management       1999                   1999           collection and review of single audit reports as part resolution of findings from single audits
                                                         of the grant award process. However, based on our reports.
                                                         review of the five files, there was no documentation
                                                         to indicate that Grants Management staff performed
                                                         such a review.

  S o u b and      Interim                No written     While responsible grants staff at the Service         No, the new policy addresses audit
  North Central    Guidance as            procedures.    Centers are to determine whether the grantee          resolution of findings from single audits
  Service          described                             submitted its single audit report and to review the   reports.
  Centers          above                                 single audit report, we found no documentation to
                                                         indicate a review was performed.
11.    Corporation controls fail to ensure that management decisions on audit reports are issued
       timely and that appropriate and timely corrective action is taken.

For NCSA grants, the Grants Management Office issued NCSA Grants Management Guidelines
GMG 97-06, "Pre-Award Reviews," as a draft dated July 29, 1999. In accordance with this
guidance, when the Corporation considers an applicant for an award, the responsible Grants
Management staff are to obtain and review that applicant's most recent single audit report, among
other things, in order to assess the adequacy of that applicant's financial management systems.4
Grants Management staff are to use the "Grants Office Certification" form to formally document
the results, which are then included in the Grants Management Office's in-house grants database.
On this form, Grants Management staff are to identify the grantee's cognizant or oversight agency,'
check off "yes" or "no" to any findings and issues, and to provide an explanation if findings and
issues were not resolved.

However, there are no written procedures that require the collection and review of information from
Single Audit Act reports after the grant award is made. Further, our review disclosed that
information from more recent single audit reports is not required to be considered during close-out
of NCSA grants.

For the two Service Centers we visited, grants officials referred to Chapter XI1 of the Interim
Grants Management Handbook for Stag dated May 1994 as the written guidance on obtaining and
reviewing information from current single audit^.^ Although grant officials stated that staff are to
obtain and review A-133 audit information on DVSA grantees at the time of the grants award
process and closing out of the grant, the Service Centers have no written procedures requiring the
use of A- 133 audit information during the grant award process.

In our view, by not obtaining and reviewing single audits during the grant award process, during the
grant period, and at grant close-out, the Corporation might not be aware of information useful to the
oversight and monitoring of its grants.




4
 We reported previously on deficiencies in the Grants Management Office's pre-award procedures in OIG Report 98-
02, Review of Corporation for National Service Pre-Award Financial Assessment of Grant Applicants. While Grants
Management revised GMG 97-06, "Pre-Award Reviews," in response to the deficiencies, it has yet to finalize all the
corrective actions contained in the report.
5
  For findings that affect the programs of more than one Federal agency, the Circular requires a "cognizant" or
"oversight" agency to be designated to coordinate the audit resolution. Under OMB Circular A-133, a cognizant
agency provides the predominant amount of direct funding to a recipient that expends more than $25 million a year in
Federal awards. An oversight agency is the Federal awarding agency that provides the predominant amount of direct
funding to a recipient that expends less than $25 million a year in Federal awards and is not assigned to a cognizant
agency. During fiscal year 2000, the Corporation identified 46 recipients for which it is the oversight agency and no
recipients for which it is the cognizant agency.

  During our field work, we found that information in the May 1994 guidance was outdated. Subsequently, the
guidance has been superseded by Corporation Policy Number 102, Audit Resolution under the Single Audit Act.
Specific requirements summarized above were not impacted by the updated guidance.
We recommend that the Corporation clarify and strengthen its guidelines by including specific,
written procedures that direct staff to obtain and review single audit reports during the grants award
process, the term of the grant, and close-out of the grant, and to document the completion of their
review of single audit reports and maintain such documentation.

Corporation Comment

The Corporation stated that it does not agree that its controls do not ensure that single audit
information is consistently obtained and reviewed as part of the Corporation's grant award, grant
management, and grant close-out process.

OIG Response

Based on OIG's review of the procedures for obtaining and reviewing single audit reports, we
determined that the headquarters Grants Management Office has no written procedures that require
the collection and review of information from these reports after the award is made and from more
recent A-133 audit reports during the close-out of National and Community Service Act grants.
Further, Service Centers have no written procedures that require use of A-133 audit information
during the grant award process for Domestic Volunteer Service Act grants. Thus, the current
procedures do not ensure that single audit information is consistently obtained and reviewed as part
of the Corporation's grant award, grant management, and grant close-out process. Our finding
supports the need for procedures, since the results of our testing showed that reviews of A-133 audit
information were not being performed and documented by responsible grants staff.


111.   Corporation controls do not ensure that single audit information is considered as part of the
       Corporation's grant award, grant management and grant closeout process.

Corporation Policy Number 102, Audit Resolution under the Single Audit Act, was issued by the
Corporation on July 6, 2000. Our review of the policy indicates that it primarily addresses the
resolution of findings under single audits. It does not adequately address how the Corporation is to
determine which of its grantees are required to have Circular A-133 audits. For example, as noted
in the Table on page 6, the policy does not specifically require Corporation staff to inquire of grant
applicants the amount of Federal assistance they have received. Rather, the policy seems to require
the grants officer to determine the amount of the Corporation award, and from this amount
determine whether an Circular A-133 audit is required. This practice could lead the Corporation to
incorrectly conclude that certain applicants and grantees are not required to have an A-1 33 audit.

The policy also does not comprehensively address the requirement that the Corporation receive and
review A-133 audit reports on a timely basis. It also does not require the receipt and review of
reports during the grant award process, during the grant period, and at grant close-out. Instead, the
policy requires that a Corporation official "periodically" review Clearinghouse data, which is
defined as once a year.

Moreover, the policy relies heavily on a Corporation Circular A-1 33 audit tracking database, which
has not yet been implemented. This database, when implemented, is intended to be the means to
document many of the requirements of the new policy, including logging in receipt of Circular A-
133 audit reports and tracking the status of each follow-up activity and corrective action. However,
until the database is implemented, the policy is unworkable, as there is no alternative written policy
for tracking Circular A-133 audit reports in the interim.

We recommend that the Corporation amend its recent policy to:

       require consideration of all Federal financial assistance in determining which grantees are
       subject to a Circular A-133 audit, and establish procedures that require Grants Management
       staff to inquire of the grantees about all Federal financial assistance;

       address timely receipt of single audit reports, review all available single audit reports, and
       resolve findings and questioned costs; and

       provide a means other than the tracking system, which is not yet in place, of documenting
       compliance with the policy.

We also recommend that the Corporation engage in a systematic review of its use of Circular A-133
audit information after implementation of the Circular A-1 33 audit tracking database and its newly
issued policy to help ensure that the policy and database are functioning as intended, and that the
Corporation is in compliance with the requirements of OMB Circular A- 133.

We recommend that the policy be amended to address timely receipt and review of Circular A-1 33
audit reports.

Corporation did not Comment

The Corporation's      response did not specifically address this finding or the related
recommendations.
APPENDIX I

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objective was to assess whether the Corporation's current procedures are adequate to provide
reasonable assurance that single audit information is obtained, reviewed, tracked and resolved. In
particular, we reviewed the procedures: (1) for ensuring Corporation grantees required to be audited
under the Single Audit Act are audited and reports are received by the Corporation in a timely
manner; (2) for reviewing information contained in the Federal Audit Clearinghouse; (3) for
reviewing the results of the audits that were performed; and (4) for considering single audit
information in the grant award process.

Our procedures included a review of laws and regulations on the use of single audit information,
specifically, the Single Audit Act of 1984, as amended, and OMB Circular A-133, Audits of States,
Local Governments, and Nonprofit Organizations, revised June 24, 1997, as well as reviews of
relevant Corporation policies and procedures related to single audits. We interviewed grant
officials at the headquarters and at two of the Corporation's five Service Centers, Southern and
North Central, to obtain an understanding of and to document the Corporation's current procedures.
Additionally, we performed a walk through of such procedures with a grants officer. The review
was performed during the period February 4 through November 14, 2000, and was performed in
accordance with Government Auditing Standards issued by the Comptroller General of the United
States.

OIG modified the date of the report from the draft to this final report to more accurately reflect the
end of audit fieldwork date. The draft report showed a report date of July 20, 2000. However,
subsequent to the issuance of the Corporation's Policy Number 102, Audit Resolution under the
Single Audit Act, OIG conducted additional fieldwork to review the new policy with respect to the
Corporation's current procedures in place to obtain, review, track, and follow up on single audit
findings and in consideration of the requirements of OMB Circular A-133. OIG completed its
fieldwork, including the analysis of the new policy, as of November 14,2000.

Our review included assessing the adequacy of the procedures utilized to obtain and review single
audits, and to resolve reported findings and questioned costs. Specifically, we judgmentally
selected a sample of 23 single audit reports that contained findings directly related to a Corporation
program and had been forwarded by the Federal Audit Clearinghouse to the Corporation. Thirteen
of the reports related to National and Community Service Act grants and ten related to Domestic
Volunteer Service Act grants. We identified what actions were taken in response to the findings
and questioned costs, if any. We also reviewed the documentation maintained on the reviews,
follow-up, and resolution of findings.

The 13 single audit reports tested at Grants Management Office included:

        5 state commission grantees;
        1 ArneriCorps subgrantee;
        6 ArneriCorps grantees; and
        1 AmeriCorpdLearn and Serve America grantee.
The 10 single audit reports tested at the two Service Centers included:

       1 Retired and Senior Volunteer Program (RSVP) grantee;
       1 Senior Companion grantee;
       3 Foster Grandparent grantees;
       3 grantees with both Foster Grandparent and Senior Companion grants; and
       2 grantees that had both Foster Grandparent and RSVP grants.

We provided a draft of this report to the Corporation for National and Community Service for
comment. The Corporation's response to our findings and recommendations is included as
Appendix 11. The Corporation disagreed in part with the report. The Corporation provided its
comments to certain findings and OIG responded accordingly in the report. The Corporation
reported that it will respond to all findings and recommendations at the issuance of the audit report.
APPENDIX I1
                                                                  CORPORATION
THE COPRORATION'S RESPONSE
                                                                  FOR NATIONAL




 MEMOFWNDUM


 TO:                     Luise S. Jordan


 THRU


FROM:                    Bruce Cline   ' -b
                         Director of Grants Management

DATE:                    January 19,2001

SUBJECT:                 Response to the Draft Audit Report 01-14, Stirvey of [he Corporation's Use
                         of Single Audit Reports.


We have reviewed the draft report 0 1- 14, Survey ofthe Corporation's Use ofsingle Audit
Reports. According to the OIG report, this survey was conducted to "determine whether current
procedures provide reasonable assurance that single audit reports are obtained, reviewed, and
tracked and that findings, if any, are being resolved in accordance with requirsments of OMB
Circular A-133." Due to the limited timeframe for response, our comments are primarily based
on information contained in the report and we have not yet conducted a con~prehensiveanalysis
nor reviewed work papers related to the findings. We will respond to all findings and
recommendations when the audit is issued.

While the Corporation recognizes that its A-133 processes needed improvement, we do not agree
with all of the conclusions drawn from the findings in the draft report. The OIG survey was
conducted over a 10-month period, February through December, during which the Corporation
reviewed and rewrote its A-133 policies and procedures. In July 2000, midway through the OIG
survey, the Corporation issued and implemented new A-1 33 policies and procedures.

The OIG surveyed audits that were processed using policies and procedures that we had already
determined needed revision. Although the draft report indicates that OIG reviewed the new
policy as part of the survey, OIG completed its fieldwork in July and did not provide any
feedback to the Corporation until December. It would have been more helpful if OIG had
provided timely feedback on the policies as they were being implemented and surveyed audits
processed under the new system.

One particular component of the report related to the audit sample is misleading. The draft
report refers to 13 audits that the OIG requested for its sample. Of that sample, Corporation staff



NATIONAL SERVICE: GETTING THINGS DONE                                        1201 New York Avenue, N.W Washington. D.C.2W25
.4mer:Corps   . b a r n and Ssnfe Arnenca . .\'mono/   Smor S e ~ c eCorps   telephone: 202-606-5000.website: www.natio*.org
informed the OIG that eight of the audits were related to subgrantees, not grantees and, therefore,
not the direct responsibility of the Corporation to track. The Corporation did produce the files
for the five grantees in the sample and informed the auditor that the other eight were not the
responsibility of the Corporation. We reiterated this during the exit conference. Despite this,
the audit report pointedly notes that the Corporation "was unable to locate the remaining eight
files." This is misleading and unfairly characterized the successful efforts of grants staff to
provide audit files for its grantees. Furthermore, it obscures the fact that 60% of the sample
requested by the OIG should not have been part of the sample.

Finally, the Corporation does not agree that its controls do not ensure that single audit
information is consistently obtained and reviewed as part of the Corporation's grant award, grant
management, and grant close-out process. Single audit information is considered at least three
times as part of the grant processes for three-year grants - before an award is issued and as part
of the grant management process before second and third year funding is approved, Grants are
also not closed if any audit issues have not been resolved.

While the recommendations are not timely, the survey does suggest several improvements to the
current policies that the Corporation will consider when it makes its Management Decision on
the audit.



cc: Wendy Zenker




                                   1 ' 1                 OFFICE  -
                                                          ... .- - OF ...-
                                                                    . THE
                                                          TCTOR GENERAL       I
